CERTIFICATE OF SERVICE
This is to certify that Pro Se Plaintiff has served the Defendants/Attorney
with a PETITION / MOTION FOR REHEARING to continue case on February 1,
2021 by placing a copy in the United States Post Office to:

Attorney George A. Reeves, III
Fisher & Phillips, LLP
Post Office Box 11612
Columbia, S. C. 29211-1612

£1

is Brockington, Pro Se Plaintiff
P. 0. Box 3232, Florence, S. C. 29502 ^
Telephone: (843) 616-1317

February 1, 2021

Florence, South Carolina

